          OFFICE OF JUSTICE PROGRAMS
BUREAU OF JUSTICE ASSISTANCE GRANT AWARDED TO
  FOND DU LAC TRIBAL AND COMMUNITY COLLEGE
             CLOQUET, MINNESOTA



           U.S. Department of Justice
         Office of the Inspector General
                  Audit Division


          Audit Report GR-50-10-001
               October 28, 2009
                   OFFICE OF JUSTICE PROGRAMS
          BUREAU OF JUSTICE ASSISTANCE GRANT AWARDED
          TO FOND DU LAC TRIBAL AND COMMUNITY COLLEGE
                       CLOQUET, MINNESOTA

                              EXECUTIVE SUMMARY

       The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of the Fond du Lac Tribal and Community
College’s (FDLTCC) “Gabangan-Ogimaa” Future Peace Leaders Law
Enforcement Education Program grant (commonly referred to as “LEEP”)
awarded by the Office of Justice Programs (OJP), Bureau of Justice
Assistance (BJA). 1 According to its Edward Byrne Memorial State and Local
Law Enforcement Discretionary Grant Program application, the main purpose
of this grant was to provide training and education to American Indians and
other under-represented group members interested in a law enforcement
career. FDLTCC was awarded $789,548 under grant number
2005-DD-BX-1194 to implement its grant program.

      FDLTCC is located in Cloquet, Minnesota (approximately 20 miles
southwest of Duluth, Minnesota), and was created by the Minnesota
Legislature in 1987 and chartered as a tribal college by the Fond du Lac
Reservation that same year. In 1994, Congress passed legislation giving
FDLTCC status as a land grant institution, and the Minnesota legislature
approved FDLTCC as a full college by state standards with co-governance by
the state and the Fond du Lac Band of Lake Superior Chippewa. FDLTCC’s
law enforcement program, one of the college’s largest, has been awarding
associate degrees in law enforcement since the college’s opening and is the
only program in Minnesota to address areas of tribal law enforcement, treaty
enforcement, and tribal conservation codes. FDLTCC is one of the
many institutions that comprise the Minnesota State Colleges and
Universities system (MnSCU). MnSCU provides system-wide administrative
management and develops policy for state universities and colleges.

      The purpose of this grant audit was to determine whether
reimbursements claimed for costs under the grant were allowable,
supported, and in accordance with applicable laws, regulations, guidelines,
and terms and conditions of the grant, and to determine program
performance and accomplishments. The objective of our audit was to review
performance in the following areas: (1) the internal control environment;

      1
        The grant awarded to FDLTCC was funded by the Edward Byrne Discretionary Grant
Program and was the result of a congressional earmark under the authority of Pub. L. No.
108-447 (2004), The Consolidated Appropriations Act, 2005.


                                          - ii -
(2) grant drawdowns; (3) grant expenditures, including personnel costs;
(4) budget management and control; (5) property management;
(6) financial status and progress reports; (7) grant requirements;
(8) program performance and accomplishments; and (9) monitoring
contractors. We determined that indirect costs, matching costs, program
income, and the monitoring of subgrantees were not applicable to this grant.

      As of December 31, 2008, FDLTCC had been reimbursed $638,512 of
the $789,548 awarded under this grant. We performed detailed transaction
testing of $195,962, or approximately 29 percent of the $683,887 expended
as of December 31, 2008. We examined FDLTCC’s accounting records,
budget documents, financial and progress reports, and operating policies
and procedures. Our testing found that FDLTCC used one of its accounting
systems without password protection; maintained unconsolidated grant
records that collectively lacked adequate detail and inaccurately accounted
for grant-related costs; did not maintain detailed time and effort reports
related to an employee’s grant activity; and did not implement monitoring
procedures that allowed for assessment and evaluation of contractor
performance. Additionally, the grantee expended funds in unapproved
budget categories without receiving OJP approval. In total, we identified
$205,836 in unallowable or unsupported expenditures. Finally, the grantee
did not always submit timely financial status reports and progress reports.

      Our report contains 13 recommendations addressing the preceding
issues, which are discussed in detail in the Findings and Recommendations
section of the report. Our audit objectives, scope, and methodology appear
in Appendix I of the report.




                                   - iii -
